Credit Cards

BMO Harris Bank®
Consumer agreement

Consumer
Cardholder
Agreement

BMO Harris Bank Consumer Cardholder Agreement

II

Credit Card
Cardholder Agreement
This Cardholder Agreement (“Agreement”) and the
documents listed in the next sentence (“Cardholder
Documents”) govern the use of your BMO Harris Bank
Platinum Mastercard®, BMO Harris Bank Platinum Rewards
Mastercard®, BMO Harris Bank Cash Back Mastercard®, BMO
Harris Bank Premium Rewards Mastercard®, BMO Harris
Premier Services Premium Rewards Mastercard®, and BMO
Wealth Management Premium Rewards Mastercard® credit
card account (“Account”), which is issued by BMO Harris
Bank N.A. (“Bank”). The Cardholder Documents include the
Agreement and:
• The card carrier (“Card Carrier”) we send with your credit
card or cards (“Card”);
• The Supplemental Credit Terms (“Supplement”);
• The application or solicitation (“Application”) you signed
or otherwise submitted to request the Account; and
• Any PIN mailer provided to you that contains your
personal identification number (“PIN”).
The Card Carrier, Supplement, Application, and PIN mailer
are part of this Agreement. Please read and keep the
Cardholder Documents for your records.
DISCLOSURES FOR ACTIVE DUTY MEMBERS OF THE MILITARY
AND THEIR DEPENDENTS
The following applies to members of the military and their
dependents if, at the time you establish a covered account,
you are an active duty member of the military or you are a
dependent of an active duty member of the military (as set
forth in the Military Lending Act, 10 U.S.C. 987, and its
implementing regulations).
The Arbitration Provision of this Agreement does not apply
to individuals covered by this section.

BMO Harris Bank Consumer Cardholder Agreement

1

1. PARTIES, ADDRESSES AND SIGNATURE
In this Agreement, “you,” “your” and “cardholder” mean
each person who applied for an Account approved by the
Bank. “We,” “us” and “our” mean the Bank or any person
or entity to which the Bank sells or transfers your Account.
These terms have the same meanings when used in your
monthly billing statement (“Statement”).
Unless you tell us otherwise, we will assume that you live
at the address (1) on your Application or (2) where you have
told us to send Statements (see paragraph 7 below). You
agree to tell us right away of any change in your address.
Our address is BMO Harris Bank N.A., P.O. Box 6101, Carol
Stream, IL 60197-6101.
Your handwritten, electronic or digital signature on any
document you sign in connection with the use of your
Card or Account is part of this Agreement. Such documents
include, but are not limited to, your Card, Application or any
accepted sales slip.
For Accounts with more than one borrower (“joint
Accounts”), if you are the Primary Applicant on the
Application, you are the Primary Cardholder and may have
certain administrative rights in managing the Account that
a Co-Applicant (a “Co-Borrower”) may not have. If you
are unsure of whether you are the Primary Cardholder or
Co-Borrower, you may call us at the “Contact Us” telephone
number on your Statement or write to us at the address on
your Statement.
You may add Authorized Users to your Account. An
“Authorized User” is any person to whom we have issued a
Card at your request. If you no longer want an Authorized
User to use your Account, you must notify us.
2. USING YOUR ACCOUNT
Your Account is to be used only for personal, family or
household purposes. You can access your Account by using
your Card, Convenience Checks we may issue to you, your
Account number (which may also be accessed through an
enabled mobile device), or other credit devices.

2

Credit Cards

You can use your Account to make three types
of transactions:
• Balance Transfers: You can transfer balances from other
credit card accounts to this Account. You can use a form
that we provide or other method we may offer from time
to time. You cannot transfer balances from other accounts
you have with us. Balance Transfers accrue interest from
the date of transaction without a grace period;
• Purchases: You can purchase goods or services from any
merchant that accepts your Card. Purchases of items that
you can trade right away for cash are considered QuasiCash Transactions (for example, casino chips) and will be
Cash Advances instead of Purchases (see paragraph 14
below); and
• Cash Advances: You can get cash loans as explained in
paragraph 14 below.
If your Account is a joint Account, each of you may use
the Account.
3. ILLEGAL TRANSACTIONS
You agree that your Card or Account will not be used
for any transaction that may be illegal under applicable
law. Such transactions include, for example, Internet
gambling transactions.
4. PROMISE TO PAY
By using your Card or Account, you agree to the terms in
this Agreement. You specifically promise to pay all amounts
you owe. If you have a joint Account, we can ask any one
or all of you to pay any or all amounts. It does not matter
which one of you charged the amounts to the Account.
If you let another person use your Account, including an
Authorized User, you promise to pay all amounts owed
because of that person’s transactions.
5. CHANGES IN TERMS
Subject to the requirements and limitations of applicable
law, we may change any of the terms of this Agreement.
Such changes may include revising or removing existing
terms and adding new terms or replacing your Card with
a different Card, which may have different benefits and
features. The terms changed may include, for example,

BMO Harris Bank Consumer Cardholder Agreement

3

periodic rates, fees and this Changes in Terms provision.
We will give you notice of any change as required by
applicable law.
6. CREDIT AND CASH LIMITS
We will set a maximum amount of credit for your Account
(your “Credit Limit”). We will print the dollar amount of
your Credit Limit on the Card Carrier and each Statement.
You may make Balance Transfers up to the full amount of
your available Credit Limit, subject to any other limits we
may impose.
The maximum amount of credit for Cash Advances
(“Cash Limit”) will be a percentage of your Credit Limit.
We will print that percentage on the Supplement and
we will print the dollar amount of your Cash Limit on
each Statement.
You agree not to use your Account for any transaction that
would cause the total unpaid balance of your Account to go
over your Credit Limit. You may not get a Cash Advance if
it would cause the total unpaid balance of Cash Advances
(including Interest and Cash Advance Fees) to go over your
Cash Limit. We may ask you to pay right away any amount
over your Credit Limit or Cash Limit.
We may change the amount of available credit from time
to time. This means we may increase, decrease or remove
your Credit Limit, and/or Cash Limit. We may also limit the
frequency and amount of Cash Advances you may make in
any time period. We also may set a limit for other types of
transactions, such as Balance Transfers. We may change the
amount of available credit without telling you first unless
applicable law requires us to do so. Reasons for changes
include, for example, your credit history with us and/or your
default under this Agreement (see paragraph 18.B below).
Other reasons include prevention of fraud and changes to
this credit card program or Bank policy. Although we credit
your payments as described in paragraph 13.C and D below,
we may not make credit available on your Account in the
amount of your payment right away.

4

Credit Cards

7. YOUR STATEMENT
We will send you a Statement for each monthly billing cycle
in which:
• You owe us or we owe you more than $1 on the last day
of the cycle;
• We impose Interest or a fee;
• There is any other activity on your Account and we are
not prohibited by law from sending a communication to
you; or
• Applicable law requires us to send a Statement.
The Statement will show important information about
your Account, such as:
• The unpaid balance of your Account at the beginning of
the cycle;
• Payments or other credits to your Account during
the cycle;
• Transactions, Interest, fees, and any other amounts
charged to your Account during the cycle;
• The total unpaid balance of your Account on the last day
of the cycle (“New Balance”);
• The minimum payment you must make (the “Minimum
Payment Due”) and the date that it is due (the “Payment
Due Date”); and
• Your Credit Limit, Cash Limit, and the dollar amount of
credit and cash available (“Available Credit” and “Available
Cash”). We may display your Available Cash as an amount
rounded down to the nearest dollar.
We will send Statements and any other notices to (1) the
address on your Application, or one of the addresses on
your Application for joint Accounts or (2) a different address
you give us. If your Account is a joint Account, each one of
you agrees that any one of you can pick the address, but
we will only send Statements and notices to one address.
Subject to limitations we may impose, you may be able
to change your Payment Due Date. For more information,
contact us at the “Contact Us” telephone number on
your Statement.

BMO Harris Bank Consumer Cardholder Agreement

5

8. INTEREST
We will calculate interest on your Account each cycle by
multiplying a daily periodic rate by the balance subject to
the interest rate of your Account (“Interest”) as described
in paragraphs 9 and 10 below. We will charge a minimum
Interest charge in the amount shown on the Supplement in
any billing cycle that you owe Interest.
9. PERIODIC RATES
We will use one or more periodic rates to determine how
much Interest you owe. The periodic rate is the annual
percentage rate (“APR”) divided by 365. The Supplement
shows the periodic rates and APRs that apply to
your Account.
A. Purchase Rate. The rate for Purchases (“Purchase Rate”)
will be the rate shown on the Supplement.
B. Cash Advance Rate. The rate for Cash Advances
(“Cash Advance Rate”) will be the rate shown on
the Supplement.
C. Balance Transfer Rate. The rate for Balance Transfers
(“Balance Transfer Rate”) will be the rate shown on
the Supplement.
D. Variable Rates. The applicable rate for each billing cycle
will be an index rate (“Index Rate”) plus a percentage
we select (“Margin”).
Different Margins may apply to different transactions.
For example, we may give you one Margin for Purchases
(“Margin for Purchases”). We may give you a different
Margin for Cash Advances (“Margin for Cash Advances”) and
for Balance Transfers (“Margin for Balance Transfers”). We
will print the Margins for your Account on the Supplement.
The Index Rate is the Prime Rate published in The Wall
Street Journal® on the last publication day of the month just
before each Statement date. If there is no published Prime
Rate, we may pick a similar rate. We will tell you what rate
we pick.
If the Index Rate changes, your variable rate may change.
For example, variable rates may increase if the Index Rate
increases. Any increase or decrease in a variable annual
percentage rate due to a change in the U.S. Prime Rate
takes effect as of the first day of the following billing period.
If a variable rate changes, the new rate will apply to new

6

Credit Cards

transactions and existing balances. If any variable rate
increases, the amount of Interest and the Minimum Payment
Due may increase.
10. BALANCE SUBJECT TO INTEREST RATE
The balance subject to Interest is the average daily balance
of your Account. We calculate the average daily balance on
your Account in three categories: (1) Purchases, (2) Cash
Advances, and (3) Balance Transfers. To get the average
daily balance for each category, we take the beginning
balance of your Account for that category each day. We
then add any new transactions in that category, which
may include fees and Interest. We then subtract any new
payments or credits. This gives us the daily balance for each
category. We then add up all the daily balances for each
category for the billing cycle. We then divide the total by
the number of days in the billing cycle. This gives us the
Average Daily Balance for Purchases, the Average Daily
Balance for Cash Advances, and the Average Daily Balance
for Balance Transfers.
11. WHEN INTEREST BEGINS
You will have at least a 21-day grace period (“Grace Period”)
on some transactions. This means you have at least 21
days from the Closing Date on your Statement (“Statement
Closing Date”) to pay for new Purchases before we charge
Interest on them. The Grace Period applies only if you had
no balance left over from the past billing cycle. This could
happen two ways. You could have had no New Balance
(or a credit balance) on the Statement for the past cycle.
Or, you could have paid the New Balance for the past
cycle in full by the Payment Due Date. When the Grace
Period does not apply, Interest on Purchases begins on the
transaction date.
The Grace Period does not apply to Cash Advances or
Balance Transfers. Interest on Cash Advances and Balance
Transfers begins on the transaction date of your Cash
Advance or Balance Transfer. If you take advantage of an
offer with an Introductory or Promotional APR, we will
charge you Interest on new Purchases, unless your new
Purchases have a 0% APR, or you pay your Account balance,
including any Balance Transfers, Cash Advances and
Promotional Balances, in full each month by your payment
due date.

BMO Harris Bank Consumer Cardholder Agreement

7

12. FEES
All of the fees we charge except the fees for Balance
Transfers, Cash Advances, and Convenience Checks will be
treated as Purchases in the billing cycle in which the fee
is assessed. We will assess fees associated with Balance
Transfers, Cash Advances, and Convenience Checks in the
same category as each of those transactions.
A. Fees shown on Supplement. We may charge the
following fees. If a fee applies to your Account, we will
print the amount of the fee on the Supplement. We may
change or supplement these fees from time to time,
and if we do, we will provide you with notice of any
such change.
1. An Annual Fee will appear on your first billing
Statement and annually thereafter unless
otherwise disclosed.
2.		Transaction Fees
a. A Cash Advance Fee for each Cash Advance (not
to exceed $10 for any Cash Advance you get under
any overdraft protection program we may offer
(see paragraph 14 below));
b. A Balance Transfer Fee for each Balance Transfer;
and
c. A Foreign Transaction Fee for any transaction you
make outside the United States (except Puerto
Rico or the U.S. Virgin Islands).
3. Penalty Fees
a. A Late Payment Fee if we do not receive at least
the Minimum Payment Due by the Payment Due
Date. The Late Payment Fee will be $27 (up to $37
if a payment is late again within six billing cycles)
or the Minimum Payment Due when the payment
was late, whichever is less; and
b. A Returned Payment Fee will be $27 (up to $37
if a payment is returned again within six billing
cycles) or the Minimum Payment Due when
the payment was late, whichever is less if the
payment you make is returned for any reason.
B. Fees disclosed at time of request. Unless prohibited
by law, we also may charge you other fees from
time to time. If a fee applies to your Account, we

8

Credit Cards

will tell you the amount of the fee at the time you
request the service. Some fees that may apply to your
account include:
1. A Replacement Card Fee if you request a
replacement Card;
2. An Expedited Delivery Fee (in addition to any other
applicable fees) if you ask us to send a Card by
expedited delivery;
3. A Dual Statement Fee if you ask us to send your
Statements in both paper and electronic form;
4. A Document Fee if you ask us to provide copies of
documents, such as sales slips and receipts; and
5. An Expedited Payment Fee if a representative of ours
helps expedite your payment.
C. Convenience Check Fees. Unless prohibited by law, we
may also charge you fees associated with your use of
Convenience Checks, and we will tell you the amount of
the fee at the time you request the service or with the
offer accompanying the Convenience Checks:
1. A Convenience Check Fee will apply to the use of
Convenience Checks.
2. A Stop Payment Fee if you request to stop payment
on a Convenience Check.
3. A Returned Payment Fee if a Convenience Check is
returned for non-payment for any reason.
13. YOUR PAYMENTS
A. Minimum payment. Each billing cycle you must pay at
least the Minimum Payment Due by the Payment Due
Date. We calculate the largest of the following and then
add the greater of any amount that is past due or any
amount in excess of your credit limit:
• The New Balance on the billing statement if it is less
than $25;
• $25 if the New Balance is at least $25;
• 2% of the New Balance (which calculation is rounded
down to the nearest dollar); or
• 1% of your Net New Balance plus any new Interest
charges and any new Penalty Fees. We round that
number down to the nearest dollar. Net New Balance
is your New Balance less any new Interest charges
and any new Penalty Fees.

BMO Harris Bank Consumer Cardholder Agreement

9

However, the Minimum Payment Due will never exceed
your New Balance. You may at any time pay more than
the Minimum Payment Due up to the full unpaid balance
without any extra charge.
B. How to make payments. Make your payment by check,
money order or similar instrument in U.S. dollars. If
you write a check, the check must be from a financial
institution in the United States. Do not send us cash. You
may not use a Convenience Check drawn on an Account
issued by us to pay us (see paragraph 14 below).
Mail your payment to the address on your Statement
or deliver it in person to a Qualifying Branch (see
paragraph 13.D below). With your payment, include your
payment coupon, which is a part of your Statement.
If you do not include your payment coupon, we may
delay crediting the payment to your Account. A Late
Payment Fee and additional Interest may be charged
if crediting is delayed. Other payment options may be
available. Please call us at the “Contact Us” number
provided on your Statement or refer to your Statement
for instructions.
We won’t treat credits made on your Account, including
credits from merchants or some credits made by
person- to-person money transfers, as payments, and
such credits may not be applied towards reducing your
Minimum Payment Due. You cannot use gift cards, gift
certificates, electronic certificates or similar instruments
purchased by you or anyone else with a BMO Harris
Bank credit card to make a payment on your Account.
C. When we credit payments and how we apply
payments. If we receive your payment by mail by 5:00
p.m. Central Time on any business day, we will credit
the payment to your Account as of that day. Otherwise,
we will credit the payment on the next business day.
If you make a payment at any location other than the
address on your Statement or a Qualifying Branch (see
paragraph 13.D below), we may delay crediting that
payment. We may use payments up to the required
Minimum Payment Due to pay down the balances of
your Account in any order we decide. This may include
paying balances subject to lower rates of Interest before
balances subject to higher rates. For any payment
amount over the Minimum Payment Due we will
allocate such amounts to pay balances subject to higher

10

Credit Cards

rates of Interest before paying balances subject to lower
rates. If your payment is returned as unacceptable for
any reason, we may post a transaction to your Account
in an amount equal to the credit we previously gave
for the payment, and we may charge a Penalty Fee
and Interest on this amount from the date your Account
originally was credited for the payment. You may also
lose any Promotional or Introductory Rates subject to
paragraph 22 below.
D. In-Branch payments. If you have a BMO Harris-branded
card, you may deliver your payment during normal
business hours to a Customer Service Representative
at any bank branch identified by the BMO Harris name,
brand or logo (“Qualifying Branch”). We will credit such
payments on the day we receive them.
E. Disputed payments. You agree not to send us disputed
payments. By disputed payment, we mean a payment
of less than the amount due marked “paid in full,”
“without recourse” or similar language. If you send a
disputed payment, we may take it without losing any
of our rights. If you want to tell us about a disputed
payment, you can send a letter and/or disputed
payment to the address listed in paragraph 1 above and
not the address on your Statement. You may also call us
at the “Contact Us” number provided on your Statement.
14. GETTING CASH ADVANCES
You can get a Cash Advance by taking your Card to a
financial institution and asking for cash (see paragraph
6 above). You also can get a Cash Advance in one of the
following ways:
• Convenience Checks: We may send you Convenience
Checks (or Promotional Checks) from time to time. You can
use a Convenience Check like a personal check, and it will
be subject to the terms provided with the Convenience
Checks, in addition to the terms of this Agreement. We
may charge a Convenience Check to your Account at
the time we receive it, even if it (1) is post-dated, (2) is
stale or (3) will cause you to go over your Credit Limit or
Cash Limit. (By “post-dated,” we mean the date of the
check is in the future. By “stale,” we mean a bank is not
required to pay the check because the date of the check
is too far in the past.) You can ask us to stop payment
on a Convenience Check by calling or writing us at the

BMO Harris Bank Consumer Cardholder Agreement

11

“Contact Us” number or address on your Statement.
We cannot guarantee stop payment on Convenience
Checks. We will not owe you anything if we fail to
stop payment.
• ATM Cash Advances: You can get an ATM Cash Advance
by using your Card at an automated teller machine
(“ATM”). The ATM must accept cards from the Mastercard
family of brands. You must use the correct PIN. You can
request a PIN by calling the customer service number
on the back of your Card or the “Contact Us” number on
your Statement. Any terms, conditions or limitations
of the ATM network you use will apply to ATM Cash
Advances. We may limit the number or amount of ATM
Cash Advances you can get in one day. We may stop
you from getting ATM Cash Advances if we reasonably
believe there is unusual activity on your Account. We
also may stop you from getting ATM Cash Advances if
you are in default under this Agreement (see paragraph
18.B below).
• Overdraft Protection Advances: If you have a checking or
demand deposit account (“DDA”) with us now or in the
future and you have enrolled in an available overdraft
protection program, we may offer you an automatic
Cash Advance to transfer money from your Account to
your DDA. The automatic Cash Advance feature of our
overdraft protection program may not be available on all
Accounts. The amount of the Cash Advance will be the
amount of the overdraft rounded up to the nearest $100,
not to exceed your Cash Limit. By overdraft, we mean
the total amount by which checks, payments, charges
and other items properly chargeable to your DDA exceeds
the balance of your DDA. You must be enrolled in the
overdraft protection program at the time of the overdraft.
The terms and conditions of the overdraft protection
program also apply to this type of Cash Advance. We will
give you those terms and conditions when you enroll in
the program.
• Quasi-Cash Transactions: Purchases of items that you can
trade right away for cash (“Quasi-Cash Transactions”)
will be Cash Advances instead of Purchases. Quasi-Cash
Transactions include, but are not limited to, purchases
of casino gaming chips, money orders, deposits, wire
transfer money orders, travelers checks, foreign currency
and similar items.

12

Credit Cards

15. CURRENCY CONVERSION
You can make transactions in currencies other than U.S.
dollars. If you do, Mastercard will convert the amount of
the transaction to U.S. dollars. Mastercard uses either (1) a
rate Mastercard selects from the range of rates available
in wholesale currency markets for the applicable central
processing date, or (2) a rate set by a government for the
applicable central processing date. The conversion rate
may be different from the published rate in effect on the
day that you made the transaction or that we posted the
transaction to your Account.
16. AUTHORIZATION OF TRANSACTIONS
We do not promise to authorize every transaction
you request. We may limit the number or amount of
transactions we authorize on your Account in any one day.
We may refuse to authorize any illegal transaction. We may
refuse to authorize any transaction that would cause you
to go over your Credit Limit or Cash Limit or any other limit
we impose on your Account. We may refuse to authorize
transactions if your Account is closed or in default (see
paragraph 18 below). We will not pay for any harm these
actions may cause you, except as required by applicable
law. In addition, we will not owe you anything if a merchant
or financial institution does not let you make a transaction
on your Account. We also will not owe you anything if there
is a problem with goods or services you purchase using your
Account, except as explained in Your Billing Rights below.
17. UNAUTHORIZED USE
If you notice the loss or theft of your Card or a possible
unauthorized use of your Card, you should call us
immediately at the “Lost or Stolen” telephone number
provided on your Statement. You will not be liable for
any unauthorized use that occurs after you notify us. You
may, however, be liable for unauthorized use that occurs
before your notice to us. In any case, your liability will not
exceed $50.

BMO Harris Bank Consumer Cardholder Agreement

13

18. CLOSING YOUR ACCOUNT
A. How you can close your Account. You can close your
Account at any time by calling us at the “Contact Us”
telephone number or writing to us at the “Contact Us”
address on your Statement. We will close your Account
after we receive your notice. If you close your Account,
you must stop using your Account right away unless you
and we agree otherwise. You must also destroy and
safely dispose of your Card.
B. When we can suspend or close your Account; default.
We can suspend or close your Account at any time. We
will not tell you first unless applicable law requires us
to do so. We may suspend or close your Account for any
reason. One of the reasons may be your default under
this Agreement. We may decide you are in default if:
• You do not pay any Minimum Payment Due by the
Payment Due Date;
• You die or become bankrupt, insolvent or
incompetent;
• Someone tries to get your assets, wages or property
by filing a legal action against you;
• We believe any information you gave us is false,
misleading or incomplete;
• You go over your Credit Limit or Cash Limit;
• You break any promise you make in this Agreement;
• You are in default under any other loan or security
agreement you have with us;
•

You move to, or you live in, a place where we do not,
or no longer, offer Accounts (including any location
outside the United States).

However, we will not decide you are in default for a
reason prohibited by applicable law.
C. After you or we close your Account. If you or we close
your Account, you must pay the full amount you owe
us. The full amount includes amounts you owe that we
have not yet billed to you. If we close your Account, we
may ask you to pay the full amount right away. We will
not ask you to pay right away if applicable law prohibits
it or you and we agree that you do not have to. Until
you pay us in full, we may continue to charge applicable
fees as well as Interest on the amount you owe us. We
also may continue to report the amount you owe us to

14

Credit Cards

consumer reporting agencies and other proper parties.
You must destroy your Card if we ask you to.
19. COLLECTION COSTS
If we refer your Account to an attorney for collection after
your default, we may charge you our collection costs.
Collection costs may include court costs and reasonable
attorneys’ fees. We will charge these costs only when and
as permitted by applicable law.
20. SECURITY
We may ask you to give us something valuable to secure
payment of amounts you owe under this Agreement.
We will not take as security any household goods or
real property.
21. OTHER SERVICES
From time to time, third parties may offer you services.
These services may include credit card registration,
emergency cash service, address change service and
other related services. If you purchase a service, we will
charge the fee to your Account. If you have a problem with
a service, you must contact the third party to resolve it.
We will not owe you anything for a claim related to the
service. You agree to hold us harmless to the fullest extent
possible from any such claims, unless otherwise prohibited
by applicable law. These services may be discontinued or
the terms of the services changed at any time without
advance notice.
22. SPECIAL PROGRAMS
From time to time, we may offer Special Programs. A
Special Program will have some terms that are different
from the terms in this Agreement. We will tell you the
terms when we make the offer. If you accept the offer, you
agree to those terms. Except where the Special Program
terms are different, the terms in this Agreement continue
to apply to Special Program transactions. The terms in
this Agreement also continue to apply to transactions that
are not Special Program transactions. We may use your
payments up to the required Minimum Payment Due to
pay down Special Program balances before other balances
on your Account. This may reduce the time that any Special
Program applies to your Account. This also may increase

BMO Harris Bank Consumer Cardholder Agreement

15

the amount of Interest you will owe on the other balances.
Special Programs may include, for example:
• Introductory Rate: A lower rate (“Introductory Rate”) will
apply to your Account or to certain transactions on your
Account (for example, Purchases) for a certain period of
time (“Introductory Period”). However, the Introductory
Period may end sooner. It will end sooner if you do not
pay the full Minimum Payment Due within 60 days of the
Payment Due Date. After the Introductory Period ends,
the rate(s) will increase to the rate(s) that applies at that
time. If your Account has an Introductory Rate, we will
print the Introductory Rate and Introductory Period on
the Supplement. The Supplement also will explain the
transactions to which the Introductory Rate applies.
• Promotional Rate: A different rate (“Promotional Rate”)
will apply to your Account or to certain transactions on
your Account for a certain period of time (“Promotional
Period”). However, the Promotional Period may end
sooner. It will end sooner if you pay the balance subject
to the Promotional Rate before the Promotional Period
ends. Except during the first year your Account is open, it
also will end sooner if you do not pay the full Minimum
Payment Due by the Payment Due Date. During the first
year your Account is open, it also will end sooner if you
do not pay the full Minimum Payment Due within 60
days of the Payment Due Date. After the Promotional
Period ends, the rate(s) will increase to the rate(s) that
applies at that time. If your Account has a Promotional
Rate, we will print the Promotional Rate and Promotional
Period on the Supplement or Special Program offer. The
Supplement or Special Program offer also will explain the
transactions to which the Promotional Rate applies.
23. INFORMATION ABOUT YOU
A. How we use and share your credit information. When
you applied for an Account, you gave us information
about yourself. You also agreed that we could
request information about your creditworthiness and
employment from others (including requesting your
consumer report from consumer reporting agencies). We
use this information when considering your Application
and for any other lawful purpose. These purposes
include (1) any updates, renewals or extensions of credit
and (2) reviewing or collecting your Account. If you write

16

Credit Cards

to us at Credit Card Marketing, P.O. Box 2035, Milwaukee,
WI 53201-2035, we will tell you the name and address
of each consumer reporting agency that gave us your
consumer report. We may give information about you
and your Account to consumer reporting agencies and
other proper parties.
We may report information about your Account to
credit bureaus. Late payments, missed payments, or
other defaults on your Account may be reflected in
your credit report.
B. Tell us about inaccurate information. Tell us if we have
inaccurate information about you. Also tell us if we
reported inaccurate information about you to a credit
reporting agency. Write to us at the address listed in
paragraph 1 above. Include in your letter the specific
information you think is inaccurate.
C. Emergency card services. We may share your personal
information with Mastercard International, Mastercard
International contractors and service providers, and our
contractors and service providers, for the purpose of
providing Emergency Card Replacement and Emergency
Cash Disbursement services to you.
D. Authorized Users. We may share information about your
Account with Authorized Users you add to your Account.
24. CONSENT TO TELEPHONE CALLS AND MONITORING
You authorize us (which includes, for the purposes
of this paragraph, our agents and representatives) to
contact you using automatic telephone dialing systems,
artificial or prerecorded voice message systems, email
and text messaging systems in order to provide you with
information regarding your Account, including information
about missed payments, the suspected misuse of your
Card, or general servicing items. You authorize us to make
such contacts using any telephone numbers (including
wireless, landline and Voice Over Internet Protocol numbers)
you have supplied or will supply to us in connection with
your Account or any other account you may have or will
establish with us. You understand that anyone with access
to your telephone may listen to or read the messages we
leave or send you, and you agree that we will have no
liability for anyone accessing such messages. You further
understand that, when you receive a telephone call or text
message, you may incur a charge from the company that

BMO Harris Bank Consumer Cardholder Agreement

17

provides you with telecommunications, wireless and/or
data services, and you agree that we will have no liability
for such charges. You expressly authorize us to monitor
and record your calls with us. You agree that you are the
owner and/or primary user of any telephone number or
email address you provide to us and that you will notify us
if this is no longer true as to any such telephone number or
email address.
25. AUTOMATIC BILLING UPDATER SERVICE
We participate in the Mastercard® Automatic Billing Updater
(ABU) service. When your Card number or expiration date
is updated, or your Account is closed, we will provide the
updated Card information to merchants who participate in
ABU with whom you have automatic billing arrangements
(such as telephone, cable companies, insurance and
health clubs). Since not all merchants participate in ABU,
you should notify each merchant with whom you have
automatic billing arrangements of the updated Card
information to ensure your payments are not interrupted.
If you do not want us to provide your Card updates through
ABU, please call the customer service number on the back
of your credit card and allow 60 days for your opt out to
take effect.
26. GOVERNING LAW
This Agreement and your Account are governed by federal
law applicable to a national bank and, to the extent not
preempted by federal law, the laws of Illinois, without
regard to its conflicts of law provisions. We have accepted
this Agreement in Illinois.
For Maryland residents only, to the extent federal law and
the laws of the state of Illinois do not apply, this Agreement
is governed by Title 12, Subtitle 9 of the Maryland
Commercial Law Article.
27. ARBITRATION PROVISION
Either you or we can ask the other to resolve a Claim by
binding arbitration. By “Claim,” we mean any claim, dispute
or controversy (whether in contract, tort or otherwise) at
any time arising from or relating to your Account or this
Agreement. We intend the term Claim to have the broadest
possible meaning. Claim includes, by way of example and
without limitation:

18

Credit Cards

• Claims arising from your Application for or issuance, use,
terms, change in terms or addition of terms, closing or
collection of your Account or this Agreement;
• Claims arising from advertisements, promotions or oral
or written statements related to your Account, including
any Claims regarding information we got from you or we
reported to you, credit reporting agencies or others;
• Claims related to the goods or insurance or other services
purchased under your Account;
• Claims between you and our parent corporations, wholly
or majority owned subsidiaries, affiliates, predecessors,
successors, assigns, agents, independent contractors,
employees, officers, directors or representatives arising
from your Account or this Agreement; and
• Claims regarding the validity, enforceability or scope of
this Arbitration Provision or this entire Agreement.
However, the term Claim does not include any Claim
relating to the validity and effect of any class action,
consolidation and/or joinder waiver.
Arbitration is different from a lawsuit in many ways. If you
or we ask for arbitration of a Claim, neither you nor we
could get a court or jury to decide the Claim. There may be
limits on the amount of information you and we could get
from each other before the arbitration. You could not be
part of a class of people with similar complaints after you
or we ask for arbitration. Except as explained below, the
arbitrator’s decision will be final and binding. Other rights
available to you in court may not be available in arbitration.
The American Arbitration Association (“AAA”) or JAMS will
conduct any arbitration between you and us. The rules for
arbitrations will be those of either AAA or JAMS (“Rules”)
in effect when you or we file the Claim. If something in
the Rules is different from something in this Arbitration
Provision, we will follow this Arbitration Provision. You
can get the Rules and other forms by calling the AAA at
1-800-778-7879, visiting the AAA’s website at www.adr.org
or writing to the AAA at 1633 Broadway, 10th Floor, New
York, New York 10019, or by calling JAMS at 1-800-352-5267,
visiting the JAMS website at www.jamsadr.com or writing
to JAMS at 1920 Main Street, Suite 300, Irvine, VA 92614.
If for any reason either the AAA or JAMS cannot, will not
or ceases to be an arbitration administrator, we will pick
another administrator with similar rules. If you want to

BMO Harris Bank Consumer Cardholder Agreement

19

arbitrate a claim, send us notice at the address listed in
paragraph 1 above. Then contact either the AAA or JAMS
to find out how to file a Claim. If needed, we will meet for
an arbitration hearing in the federal judicial district where
you live or some other place we all agree is convenient.
Arbitration fees can be more expensive than court fees.
After you have paid arbitration fees equal to the fee to file
an action in your local state or federal court, you can ask us
in writing for help. We will advance up to $325 toward the
filing, administrative and/or hearing fees for any Claim you
file against us. At the end of the arbitration, the arbitrator
will decide who should pay the arbitration fees. You may
have to pay us back some or all of the money we advanced.
Unless applicable law requires otherwise, each party has
to pay for its own attorneys’, experts’ and witness fees, no
matter who wins the arbitration.
No Claim can be arbitrated on a class action basis. An
arbitration can decide only your or our Claims. You cannot
have a joint arbitration with any parties other than persons
who use your Account. You also cannot bring together
any Claims other than those relating to you and persons
who use your Account. A court with proper jurisdiction and
not an arbitrator will determine whether this provision
prohibiting class actions, joinder and/or consolidation is
valid and effective.
This Arbitration Provision relates to a transaction involving
interstate commerce. It will be governed by the Federal
Arbitration Act (“FAA”), as amended, even if different laws
apply to other parts of this Agreement. The arbitrator will
apply applicable substantive law consistent with the FAA.
The arbitrator will apply applicable statutes of limitations.
The arbitrator also will honor claims of privilege recognized
at law. Whoever wins the arbitration can get a judgment
on the arbitration award in any court having jurisdiction.
Judgments include, for example, garnishment, attachment,
foreclosure or other post- judgment remedies.
The arbitrator’s decision generally will be final and binding.
If there is a right of appeal under the FAA, however, any
party can appeal the award. A group of three arbitrators
from either AAA or JAMS will hear the appeal. The group will
review all over again any part of the initial award that the
party who appeals requests. The party who appeals must
pay for the appeal no matter what happens at the end.

20

Credit Cards

This Arbitration Provision will apply even after you repay
your Account and after your Account is closed. If a court
decides that any part of this Arbitration Provision is invalid
or unenforceable under the FAA, the other parts still
apply. However, if a court decides that the part prohibiting
class actions, consolidation and/or joinder is invalid or
unenforceable, then this Arbitration Provision will not apply.
You can opt out of this Arbitration Provision if you write to
us within 30 days after we open your Account. Send a letter
that says you do not agree to the Arbitration Provision.
The letter must include your name, address and Account
number. Mail the letter to BMO Harris Bank N.A., Arbitration
Opt-out, P.O. Box 6101, Carol Stream, IL 60197-6101. This is
the only way you can opt out of the Arbitration Provision.
If you opt out of the Arbitration Provision, all other parts of
the Agreement still apply to your Account.
28. TRANSFER AND ASSIGNMENT
You cannot give or sell your rights or duties under this
Agreement, your Account or your Card to any other person
or company. We may give or sell our rights or duties under
this Agreement, your Account or your Account balance
to any other person or company, with or without telling
you first.
29. NO WAIVER BY US; SEVERABILITY
We may delay enforcing or give up any of our rights under
this Agreement in certain situations. If we delay enforcing
or give up any of our rights, this does not affect our other
rights. If we give up a right in one situation, we do not
give up the same right in other situations. If a court with
proper jurisdiction decides that any part of this Agreement
is unenforceable, all the other parts of this Agreement
still apply.
30. ENTIRE AGREEMENT
The Cardholder Documents are the entire agreement
between you and us relating to your Account. The
Cardholder Documents replace any other agreement
relating to your Account that you and we made earlier or at
the same time. If any of the other Cardholder Documents
has any information that is not the same as information in
this Agreement, we will follow this Agreement unless the
other document says we should follow that document.

BMO Harris Bank Consumer Cardholder Agreement

21

NJ RESIDENTS: Certain provisions of this Agreement are
subject to applicable law. As a result, they may be void,
unenforceable or inapplicable in some jurisdictions. None
of these provisions, however, is void, unenforceable or
inapplicable in New Jersey.
OHIO RESIDENTS: The Ohio laws against discrimination
require that all creditors make credit equally available to all
credit worthy customers, and that credit reporting agencies
maintain separate credit histories on each individual upon
request. The Ohio civil rights commission administers
compliance with this law.
YOUR BILLING RIGHTS: KEEP THIS DOCUMENT
FOR FUTURE USE
This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.
What to do if you find a mistake on your statement
If you think there is an error on your statement, write
to us at:
BMO Harris Bank N.A.
P.O. Box 6101
Carol Stream, IL 60197-6101.
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on
your bill, describe what you believe is wrong and why
you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on
your statement.
• At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount
you think is wrong.
You must notify us of any potential errors in writing. You
may call us, but if you do we are not required to investigate
any potential errors and you may have to pay the amount
in question.

22

Credit Cards

What will happen after we receive your letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you
that we received your letter. We will also tell you if we
have already corrected the error.
2. Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the
bill is correct.
While we investigate whether or not there has been
an error:
• We cannot try to collect any amount in question, or report
you as delinquent on that amount.
• The charge in question may remain on your statement,
and we may continue to charge you interest on that
amount.
• While you do not have to pay the amount in question,
you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your
credit limit.
After we finish our investigation, one of two things
will happen:
• If we made a mistake: You will not have to pay the
amount in question or any interest or other fees related
to that amount.
• If we do not believe there was a mistake: You will have
to pay the amount in question, along with applicable
interest and fees. We will send you a statement of the
amount that you owe and the date payment is due. We
may then report you as delinquent if you do not pay the
amount we think you owe.
If you receive our explanation but still believe your bill is
wrong, you must write to us within 10 days telling us that
you still refuse to pay. If you do so, we cannot report you as
delinquent without also reporting that you are questioning
your bill. We must tell you the name of anyone to whom
we reported you as delinquent, and we must let those
organizations know when the matter has been settled
between us.
If we do not follow all of the rules above, you do not have
to pay the first $50 of the amount you question, even if
your bill is correct.

BMO Harris Bank Consumer Cardholder Agreement

23

Your rights if you are dissatisfied with your credit
card purchases
If you are dissatisfied with the goods or services that you
have purchased with your credit card, and you have tried in
good faith to correct the problem with the merchant, you
may have the right not to pay the remaining amount due
on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state
or within 100 miles of your current mailing address,
and the purchase price must have been more than $50.
(Note: Neither of these are necessary if your purchase
was based on an advertisement we mailed to you,
or if we own the company that sold you the goods or
services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or
with a check that accesses your credit card account do
not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still
dissatisfied with the purchase, contact us in writing at:
BMO Harris Bank N.A.
P.O. Box 6225
Carol Stream, IL 60197-6225.
While we investigate, the same rules apply to the
disputed amount as discussed above. After we finish our
investigation, we will tell you our decision. At that point, if
we think you owe an amount and you do not pay, we may
report you as delinquent.

24

Credit Cards

Notes

Talk with us

1-855-825-9237
Learn more

bmoharris.com

Mastercard® is a registered trademark of Mastercard International Incorporated.
Banking products and services are subject to bank and credit approval and
are provided by BMO Harris Bank N.A. Member FDIC. BMO Harris Bank® and
BMO Harris® are trade names used by BMO Harris Bank N.A.
BMO Harris Premier Services represents a combined service approach of BMO
Harris Financial Advisors and BMO Harris Bank, each a part of the BMO Financial
Group. BMO Harris® is a trade name used by BMO Harris Bank N.A. and its affiliates.
BMO Harris Premier Services includes banking, deposit and loan products and
services provided by BMO Harris Bank N.A. Banking products and services are
subject to bank and credit approval. BMO Harris Bank® is a trade name used by
BMO Harris Bank N.A. Member FDIC. BMO Harris Bank does not provide legal or
tax advice.
Securities, investment advisory services and insurance products are offered
through BMO Harris Financial Advisors, Inc. Member FINRA/SIPC. SEC-registered
investment adviser. BMO Harris Financial Advisors, Inc. and BMO Harris Bank N.A.
are affliated companies. Securities and insurance products offered are: NOT FDIC
INSURED — NOT BANK GUARANTEED — NOT A DEPOSIT — MAY LOSE VALUE.

I

BMO Wealth Management is a brand name that refers to BMO Harris Bank N.A.
and certain of its affliates that provide certain investment, investment advisory,
trust, banking, securities, insurance and brokerage products and services. Banking
products and services are provided by BMO Harris Bank N.A. and are subject to
bank and credit approval. BMO Harris Bank N.A. Member FDIC.
© 2020 BMO Harris Bank N.A. All Rights Reserved. (01/20)
50318215

01-20/19-2758

F03-W643-5-0120

© 2017 BMO Financial Corporation. All Rights Reserved.

Credit Cards

